OFFICE OF AUDIT                             2013-FO-0001
FINANCIAL AUDITS DIVISION
WASHINGTON, DC




        Government National Mortgage Association
              Fiscal Years 2012 and 2011
              Financial Statements Audit




2013-FO-0001                            NOVEMBER 7, 2012
                                                                 Issue Date: November 7, 2012

                                                                 Audit Report Number: 2013-FO-0001




TO:                Theodore Tozer, President, Government National Mortgage Association, T

                     /s/
FROM:              Thomas R. McEnanly, Director, Financial Audit Division, GAF


SUBJECT:           Audit of the Government National Mortgage Association’s (Ginnie Mae)
                   Financial Statements for Fiscal Years 2012 and 2011


    In accordance with the Government Corporation Control Act as amended (31 U.S.C. 9105),
the Office of Inspector General engaged the independent certified public accounting firm of
CliftonLarsonAllen LLP (CLA) to audit the fiscal years 2012 and 2011 financial statements of
the Government National Mortgage Association (Ginnie Mae). The contract required that the
audit be performed according to Generally Accepted Government Auditing Standards (U.S.
GAGAS). Ginnie Mae’s fiscal year 2011 financial statements were audited by Clifton
Gunderson1; whose report dated November 7, 2011 expressed an unqualified opinion on those
financial statements.

    In connection with the contract, we reviewed CLA’s report and related documentation and
inquired of its representatives. Our review, as differentiated from an audit in accordance with
U.S. GAGAS, was neither intended to enable us to express an opinion nor do we express an
opinion on GNMA’s financial statements, internal controls or conclusions on compliance with
laws and regulations. CLA is responsible for the attached auditor’s report dated November 7,
2012 and the conclusions expressed in the report. Our review disclosed no instances where CLA
did not comply, in all material respects, with U.S. GAGAS.

    This report includes both the Independent Auditors’ Report and Ginnie Mae’s principal
financial statements. Under Federal Accounting Standards Advisory Board (FASAB) standards,
a general-purpose federal financial report should include as required supplementary information
(RSI) a section devoted to Management’s Discussion and Analysis (MD&A) of the financial
statements and related information. The MD&A is not included with this report. Ginnie Mae
plans to separately publish a Report to Congress for fiscal year 2012 that conforms to FASAB
standards.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
1
    In early 2012, Clifton Gunderson LLP merged with another firm and became CliftonLarsonAllen LLP.
                                                                                   2013-FO-0001

please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   Within 60 days of this report, CLA expects to issue a separate letter to management dated
November 7, 2012 regarding other matters that came to its attention during the audit.

    We appreciate the courtesies and cooperation extended to the CLA and OIG audit staffs
during the conduct of the audit. If you have any questions or comments about this report, please
do not hesitate to call me at 202-402-8216.




                                                2
                                   2013-FO-0001




(THIS PAGE LEFT BLANK INTENTIONALLY)




                 3
                                                             2013-FO-0001


                     TABLE OF CONTENTS

OIG Transmittal Memorandum……………………………………………………………….....1

Independent Auditor’s Report…………………………………………………………………...6

    Appendix A: Management’s Response………………………………………………..11

    Appendix B: Status of Prior Year Recommendations………………………………...12

Financial Statements…………………………………………………………………………...13

    Balance Sheets……………………………………………………………………........15

    Statement of Revenues and Expenses and Changes in Investment of U.S.
    Government……………………………………………………………………….........16

    Statement of Cash Flows………………………………………………………….........17

Notes to the Financial Statements……………………………………………………………...18




                                   4
                                   2013-FO-0001




(THIS PAGE LEFT BLANK INTENTIONALLY)




                 5
                                                                                       2013-FO-0001

                                                                             CliftonLarsonAllen LLP

                                                                             www.cliftonlarsonallen.com




                           INDEPENDENT AUDITOR’S REPORT


Inspector General
United States Department of Housing and Urban Development

President
Government National Mortgage Association

We have audited the accompanying balance sheets of the Government National Mortgage
Association (Ginnie Mae), a wholly-owned government corporation within the United States
Department of Housing and Urban Development (HUD), as of September 30, 2012 and 2011,
and the related statements of revenues and expenses and changes in investment of U.S.
Government, and cash flows (“financial statements”) for the years then ended. The objective of
our audit was to express an opinion on the fairness of these financial statements. In connection
with our audit, we also considered the internal control over financial reporting and considered
Ginnie Mae’s compliance with laws and regulations. In our audit, we found:

      The financial statements are presented fairly, in all material respects, in conformity with
       accounting principles generally accepted in the United States of America (U.S.);
      No material weaknesses in internal control over financial reporting (including
       safeguarding of assets) and compliance with laws and regulations; and
      No instances of reportable noncompliance with selected provisions of laws and
       regulations tested or other matters.

The following sections and Exhibits discuss in more detail: (1) these conclusions, (2) our
conclusions on Management’s Discussion and Analysis (MD&A), and other accompanying
information, (3) our responsibility for the audit, (4) management’s responsibility for the financial
statements, (5) Ginnie Mae’s response, and (6) the current status of prior year findings and
recommendations.

Opinion on the Financial Statements
 
In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of Ginnie Mae as of September 30, 2012 and 2011, and the results of its
operations; changes in investment of U.S. Government; and its cash flows for the years then
ended in conformity with accounting principles generally accepted in the U.S.

                                                 6
                                                                                    2013-FO-0001


                    INDEPENDENT AUDITOR’S REPORT (CONTINUED)


As discussed in Note H regarding the MBS Loss Liability, Ginnie Mae has not completed the
final certification and recertification of approximately 20,000 loans following the default of a
major issuer in August 2009 and which were required to be recertified within one year based on
Ginnie Mae guidelines. Ginnie Mae has implemented a corrective action plan to complete the
final certification, which is ongoing. In FY2012, a separate task group, under the direction of the
HUD Office of General Counsel, has identified a group of loans that could suggest a high risk of
loss to Ginnie Mae. Ginnie Mae has adjusted its MBS Loss Liability and Allowance for Loss
against Mortgages Held for Investment for the additional potential risk of loss from these loans.

As discussed in Note K, Commitments and Contingencies, Ginnie Mae defaulted an issuer with
a portfolio of $42 billion of Ginnie Mae-insured Mortgage Backed Securities following the
issuer’s bankruptcy in 2012. Ginnie Mae has elected to not cancel the servicer’s rights to
service the insured portfolio, pending the successful sale of the portfolio to a third party. As of
the date of this report, a buyer had been selected but the sale had not been approved by the
bankruptcy court nor has the sale closed. In the event the sale is not completed, Ginnie Mae
has executed an agreement with the defaulted issuer to continue to service the underlying
mortgages and securities on behalf of Ginnie Mae. Ginnie Mae believes the likelihood of the
sale not being consummated is remote, and accordingly, has made no adjustment to the
accompanying financial statements to reflect any effect on their financial position that might be
incurred if a sale of the portfolio is unsuccessful.

Report on Internal Control
 
In planning and performing our audit, we considered Ginnie Mae’s internal control over financial
reporting and compliance (internal control) as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of Ginnie Mae’s internal control. Accordingly, we do
not express an opinion on the effectiveness of Ginnie Mae’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect and correct misstatements on a timely basis. A material weakness is a
deficiency or a combination of deficiencies in internal control, such that there is a reasonable
possibility that a material misstatement of Ginnie Mae’s financial statements will not be
prevented, or detected and corrected on a timely basis.

Our consideration of internal control was for the limited purpose described above and was not
designed to identify all deficiencies in internal control that might be material weaknesses. We
did not identify any deficiencies in internal control that we consider to be material weaknesses.




                                                 7
                                                                                  2013-FO-0001


                   INDEPENDENT AUDITOR’S REPORT (CONTINUED)


We noted certain matters that we reported to Ginnie Mae management in a separate letter
dated October 31, 2012.
 
Report on Compliance
 
In connection with our audit, we performed tests of Ginnie Mae’s compliance with certain
provisions of laws and regulations. The results of our tests disclosed no instances of
noncompliance that are required to be reported in accordance with Government Auditing
Standards, issued by the Comptroller General of the United States or OMB Bulletin No. 07-04
Audit Requirements for Federal Financial Statements, as amended (OMB Bulletin 07-04).

However, the objective of our audit was not to provide an opinion on compliance with laws and
regulations. Accordingly, we do not express such an opinion.

Status of Prior Year’s Control Deficiencies
 
We have reviewed the status of Ginnie Mae’s corrective actions with respect to the findings and
recommendations included in the prior year’s Independent Auditor’s Report, dated November 2,
2011. The status of the prior year findings and recommendations is presented in Exhibit A.

Other Information
Accounting principles generally accepted in the U.S. require that Ginnie Mae’s Management
Discussion and Analysis (MD&A) found in Section IV be presented to supplement the financial
statements. Such information, although not a part of the financial statements, is required by the
OMB. We have applied certain limited procedures to the MD&A in accordance with auditing
standards generally accepted in the U.S., which consisted of inquiries of management about the
methods of preparing the information and comparing the information for consistency with
management's responses to our inquiries, the financial statements, and other knowledge we
obtained during our audit of the financial statements. We do not express an opinion or provide
any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

The information in Sections I through IV (pages 2-35) is presented for purposes of additional
analyses and are not a required part of the financial statements. Such information has not been
subjected to the auditing procedures applied in the audit of the financial statements, and
accordingly, we do not express an opinion or provide any assurance on it.

Management’s Responsibility for the Financial Statements
 
Ginnie Mae management is responsible for (1) preparing the financial statements in conformity
with accounting principles generally accepted in the U.S., (2) designing, implementing, and


                                               8
                                                                                     2013-FO-0001


                    INDEPENDENT AUDITOR’S REPORT (CONTINUED)


maintaining internal control to provide reasonable assurance that the broad control objectives of
the Federal Manager’s Financial Integrity Act (FMFIA) are met, (3) ensuring that Ginnie Mae’s
financial management systems substantially comply with Federal requirements, and (4)
complying with other applicable laws and regulations.

Auditor’s Responsibility
 
We are responsible for conducting our audit in accordance with auditing standards generally
accepted in the U.S.; the standards applicable to the financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin
07-04. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are presented fairly, in all material respects,
in conformity with accounting principles generally accepted in the U.S. We are also responsible
for: (1) obtaining a sufficient understanding of internal control over financial reporting and
compliance to plan the audit, (2) testing compliance with selected provisions of laws and
regulations that have a direct and material effect on the financial statements and laws for which
OMB Bulletin 07-04 requires testing, and (3) performing limited procedures with respect to
certain other information appearing in the Annual Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements; (2) assessed the appropriateness of the
accounting policies used and the reasonableness of significant estimates made by
management; (3) evaluated the overall presentation of the financial statements; (4) obtained an
understanding of Ginnie Mae and its operations, including its internal control related to financial
reporting (including safeguarding of assets) and compliance with laws and regulations (including
execution of transactions in accordance with budget authority); (5) evaluated the effectiveness
of the design of internal control; (6) tested the operating effectiveness of relevant internal
controls over financial reporting and compliance; (7) considered the design of the process for
evaluating and reporting on internal control and financial management systems under FMFIA;
and (8) tested compliance with selected provisions of certain laws and regulations. The
procedures selected depend on the auditors’ judgment, including our assessment of risks of
material misstatement of the financial statements, whether due to fraud or error. We believe we
obtained sufficient and appropriate audit evidence on which to base our conclusions.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our audit results to future periods is subject to risk that controls may become
inadequate because of changes in conditions or that the degree of compliance with controls


                                                 9
                                                                                    2013-FO-0001


                      INDEPENDENT AUDITOR’S REPORT (CONTINUED)


may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.

We did not test compliance with all laws and regulations applicable to Ginnie Mae. We limited
our tests of compliance to selected provisions of laws and regulations that have a direct and
material effect on the financial statements and those required by OMB Bulletin 07-04 that we
deemed applicable to Ginnie Mae’s financial statements for the fiscal year ended September 30,
2012. We caution that noncompliance with laws and regulations may occur and not be detected
by these tests and that such testing may not be sufficient for other purposes.

Agency Comments and our Evaluation

Management’s response to our report is presented in Exhibit B. We did not audit Ginnie Mae’s
response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of Ginnie Mae’s management, the
HUD Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress, and is not intended to be, and should not be, used by anyone other than these
specified parties.




Arlington, Virginia
October 31, 2012




                                                10
                        2013-FO-0001


     Ginnie Mae
Management’s Response
    Appendix A




         11
                                                                                   2013-FO-0001


                                 Ginnie Mae
                   Status of Prior Year Recommendations
                                 Appendix B

 Our assessment of the current status of the recommendations related to significant
 deficiencies identified in the prior year audit is presented below:


      Prior Year Finding            Prior Year Recommendations              Current Year Status

1. Need to Improve Compliance    1a. We recommended that Ginnie             1a. Partially resolved -
Control to Ensure the Safety,    Mae’s Acting Vice President for MBS        management letter
Completeness and Validity of     hold the master sub-servicer               comment
Collateral Loan Files            accountable for delays by requiring an
                                 acceptable written timeline for final
                                 review/certification of the loan
                                 documentation/pools
2. Strengthen Internal Control   2a. Ginnie Mae’s Acting Vice               2a. Resolved
over Risk-Based Issuer and       President for MBS should increase its
Document Custodian Reviews to    oversight and monitoring of field
Improve the Effectiveness of     reviews performed on issuers and
Counterparty Monitoring and      document custodians to ensure the
Oversight                        reviews meet management’s
                                 objectives and are adequately and
                                 completely performed and properly
                                 documented.
                                 2b. Ginnie Mae Executive Vice              2b. Resolved
                                 President should allocate resource
                                 within MBS and Risk Management
                                 Division to accelerate the update to
                                 the Issuer and Document Custodian
                                 Risk Based Review Procedures
                                 Manual within the second fiscal
                                 quarter of 2012 if possible, so that the
                                 new updated reviews are performed in
                                 second half of 2012 to eliminate this
                                 deficiency.




                                              12
                   2013-FO-0001




   GINNIE MAE
FISCAL YEAR 2012
   FINANCIAL
  STATEMENTS




       13
                                   2013-FO-0001




(THIS PAGE LEFT BLANK INTENTIONALLY)




                 14
                                                                                                2013-FO-0001


Ginnie Mae Fiscal Year 2012 Financial Statements

                                                      Balance Sheets


As of September 30                                                       2012                    2011
(Dollars in thousands)

Assets:
Funds with U.S. Treasury                                             $      7,075,500       $           7,210,300
U.S. Government securities                                                  2,113,600                   2,126,800
Accrued interest on U.S. Government securities                                   10,300                   11,800
Accrued fees and other receivables, net                                          66,300                   62,500
Fixed assets--software, net of accumulated amortization                          40,100                   31,100

Mortgage loans held for investment                                          6,866,500                   6,350,300
   Less: Allowance for mortgage loans held for investment                       (177,400)
Mortgage loans held for investment, net                                     6,689,100                   6,350,300

Accrued interest on mortgage loans held for investment                           88,600                   83,400

Advances against defaulted mortgage-backed security pools                   1,092,800                    873,700
   Less: Allowance for uncollectible advances                                   (174,000)               (220,500)
Advances against defaulted mortgage-backed security pools, net                  918,800                  653,200

Short sale claims receivables                                                    36,800                   38,600
   Less: Allowance for uncollectible short sale claims receivables               (15,700)                  (6,300)
Short sale claims receivables, net                                               21,100                   32,300

Properties held for sale                                                         15,500                    7,400
    Less: Allowance for losses on properties held for sale                        (3,900)                  (4,000)
Properties held for sale, net                                                    11,600                    3,400

Mortgage servicing rights                                                        60,700                  110,900
Guaranty asset                                                              6,633,900                   2,175,100
Total Assets                                                         $     23,729,600       $       18,851,100
Liabilities and Investment of U.S. Government:
Liabilities:
Liability for loss on mortgage-backed securities program guaranty               357,400                  395,800
Deferred revenue                                                                134,400                  117,400
Deferred liabilities and deposits                                                 (2,700)                 35,700
Accounts payable and accrued liabilities                                        235,200                  365,300
Guaranty liability                                                          6,633,900                   2,175,100
Total Liabilities                                                    $      7,358,200       $           3,089,300
Commitments and Contingencies
Investment of U.S. Government                                              16,371,400               15,761,800
Total Liabilities and Investment of U.S. Government                  $     23,729,600       $       18,851,100


See the accompanying notes to the financial statements.




                                                             15
                                                                                                      2013-FO-0001

                   Statements of Revenues and Expenses and Changes in Investment of U.S. Government


For the Years Ended September 30                                                  2012                    2011
(Dollars in thousands)

 Revenues:

 Mortgage-backed securities guaranty fees                                    $            779,400     $      686,200

 Interest income - mortgage loans held for investment                                     279,800                42,300
 Interest income - US Government securities                                                81,500            208,100
 Commitment fees                                                                           79,100                74,000
 Multiclass fees                                                                           25,000                52,500
 Other mortgage-backed securities program income                                            1,800                 1,500

 Total Revenues                                                              $           1,246,600    $     1,064,600

 Expenses:
 Mortgage-backed securities program expenses                                               (62,900)           (72,800)

 Administrative expenses                                                                   (14,100)           (11,000)
 Fixed asset amortization                                                                   (9,000)              (9,900)

 Total Expenses                                                              $             (86,000) $         (93,700)

 Recapture (Provision) for loss on properties held for sale                                 (9,200)               2,900
 Recapture (Provision) for loss mortgage loans held for investment                       (158,100)                    -

 Recapture (Provision) for loss on mortgage-backed securities liability                  (264,500)           407,000
 Recapture (Provision) for loss on short sale claims and other receivables                 (16,900)              (6,800)
 Recapture (Provision) for loss on uncollectible advances                                  17,100                (8,500)

 Total Recapture (Provision)                                                 $           (431,600) $         394,600

 Gain on disposition of investment                                                         12,500                24,000

 Gain on acquisition mortgage servicing rights
      Less: Loss on credit impairment of mortgage loans HFI, net                           (81,700)          (178,700)
      Less: Loss on mortgage servicing rights                                              (50,200)           (26,800)

 Total Other Gains / (Losses)                                                $           (119,400) $         (181,500)

 Excess of Revenues over Expenses                                                         609,600           1,184,000

 Investment of U.S. Government at Beginning of Year                                  15,761,800            14,577,800
 Returned to U.S. Treasury                                                                       -                    -

 Investment of U.S. Government at End of Year                                $       16,371,400       $    15,761,800


See the accompanying notes to the financial statements.




                                                                     16
                                                                                                                2013-FO-0001

                                                        Statements of Cash Flows

For the Years Ended September 30                                                          2012                     2011
(Dollars in thousands)
Cash Flow from Operating Activities
Net Excess of Revenues over Expenses                                               $         609,600        $        1,184,000
Adjustments to reconcile Net Excess of Revenues Over Expenses to Net Cash from
Operating Activities:
 Amortization                                                                                      9,000                    9,900
 Decrease / increase in accrued interest on U.S. Government securities                             1,500                    8,600
 Increase / decrease in accrued interest on mortgage loans held for investment                    (5,200)                  97,900
 Increase / decrease in advances against defaulted MBS pools, net                            (265,600)                    188,900
 Decrease / increase in mortgage servicing rights                                                 50,200                   26,800
 Increase / decrease in deferred revenue                                                          17,000                    3,500
 Decrease / increase in deferred liabilities and deposits                                        (38,400)                  34,500
 Decrease in accounts payable and accrued liabilities                                        (130,100)                    103,600
 Increase / decrease in accrued fees and other receivables                                        (3,800)                  (7,600)
 Decrease / increase in short sale claims receivables, net                                        11,200                  (32,300)
 Increase / decrease in properties held for sale, net                                             (8,200)                  38,900
 Decrease / increase in liability for loss on MBS program guaranty                               (38,400)             (609,100)
Net Cash from Operating Activities                                                 $         208,800        $        1,047,600
Cash Flow from Investing Activities
Increase / decrease in mortgage loans held for investment, net                               (338,800)               (1,907,000)

Sale / purchase of U.S. Government securities, net                                                13,200             1,424,400

Purchase / sale of software                                                                      (18,000)                  (5,200)
Net Cash (used for) from Investing Activities                                       $        (343,600) $              (487,800)
Cash Flow from Financing Activities
Financing activities                                                                                   -                        -
Net Cash from Financing Activities                                                  $                  -    $                   -
Net increase (decrease) in cash & cash equivalents                                           (134,800)                    559,800
Cash & cash equivalents - beginning of period                                               7,210,300                6,650,500
Cash & cash equivalents - end of period                                            $        7,075,500       $        7,210,300


                                           Supplemental Schedule of Non-Cash Activities

For the Years Ended September 30                                                          2012                     2011
(Dollars in thousands)
Transfer of Advances against Defaulted MBS pools to
   Mortgage Loans Held for Investment                                              $             705,007    $        2,175,500


Transfer from Mortgage Loans Held for Investment to                                $              25,500    $             148,900
   Properties Held for Sale




See the accompanying notes to the financial statements.




                                                                     17
                                                                                  2013-FO-0001


Notes to the Financial Statements

September 30, 2012 and 2011


Note A: Organization and Summary of Significant Accounting Policies
The Government National Mortgage Association (Ginnie Mae) was created in 1968, through an
amendment of Title III of the National Housing Act as a government corporation within the
Department of Housing and Urban Development (HUD). The Mortgage-Backed Securities
(MBS) program is Ginnie Mae’s primary ongoing activity. Its purpose is to increase liquidity in
the secondary mortgage market and attract new sources of capital for residential mortgage loans.
Through the program, Ginnie Mae guarantees the timely payment of principal and interest on
securities backed by pools of mortgages issued by private institutions. This guaranty is backed
by the full faith and credit of the U.S. Government. Ginnie Mae requires that the mortgages be
insured or guaranteed by the Federal Housing Administration (FHA), the U.S. Department of
Agriculture (USDA), the Department of Veterans Affairs (VA), or the HUD Office of Public and
Indian Housing (PIH). These MBS are not assets of Ginnie Mae, nor are the related outstanding
securities liabilities; accordingly, neither is reflected on the accompanying Balance Sheets.

To ensure that adequate capital continues to flow, Ginnie Mae offers reliable solutions that meet
the needs of a broad constituent base and provide sufficient flexibility to respond to market
changes. At the core of its business model and its product offering menu is the simple pass-
through security, which comes in the form of two product structures—Ginnie Mae I MBS and
Ginnie Mae II MBS. Each Ginnie Mae product structure has specific characteristics regarding
pool types, note rates, collateral, payment dates, and geographical locations.

The underlying source of loans for the Ginnie Mae I MBS and Ginnie Mae II MBS comes from
Ginnie Mae’s following four main programs, which serve a variety of loan financing needs and
different issuer origination capabilities:

   Single Family Program – The majority of Ginnie Mae securities are backed by single family
    mortgages predominantly originated through FHA and VA loan insurance programs.

   Multifamily Program – Ginnie Mae insures securities backed by FHA and USDA purchase
    and refinance loans for the purchase, construction, and renovation of apartment buildings,
    hospitals, nursing homes, and assisted living facilities.

   HMBS Program – Ginnie Mae’s Home Equity Conversion Mortgage (HECM) securities
    program provides capital and liquidity for FHA-insured reverse mortgages. HECM loans are
    insured separately from regular single family mortgages due to their unique cash flow and fee
    structure. HECM loans can be pooled into HECM Mortgage Backed Securities (HMBS)
    within the Ginnie Mae II MBS program.




                                               18
                                                                                   2013-FO-0001


    Manufactured Housing Program – Ginnie Mae’s Manufactured Housing program allows
     the issuance of pools of loans insured by FHA’s Title I Manufactured Home Loan Program.

Basis of Presentation: The accompanying consolidated financial statements have been prepared
in accordance with accounting principles generally accepted in the United States of America
(GAAP).

Funds with U.S. Treasury: All of Ginnie Mae’s receipts and disbursements are processed by
the U.S. Treasury, which in effect maintains Ginnie Mae’s bank accounts. For purposes of the
Statements of Cash Flow, Funds with U.S. Treasury are considered cash.

U.S. Government Securities: U.S. Government Securities are classified as held for investment
as Ginnie Mae has both the ability and the intent to hold until maturity, and are carried at
amortized cost. Interest income on such securities is presented on the Statements of Revenues
and Expenses and Changes in Investment of U.S. Government (Statements of Revenues and
Expenses). Discounts and premiums are amortized, on a level yield basis, over the life of the
related security.

Fixed Assets: Ginnie Mae’s fixed assets represent systems (software) that are used to
accomplish its mission. Ginnie Mae capitalizes significant software development project costs
based on guidance in the Financial Accounting Standards Board (FASB) Accounting Standards
Codification (ASC) Subtopic 350-40 Intangibles—Goodwill and Other – Internal-Use Software
(ASC 350-40) Ginnie Mae capitalizes costs equal to or exceeding $100,000 and amortizes them
over a three- to five-year period beginning with the project’s completion on a straight-line basis.

Mortgage Loans Held for Investment (HFI): When a Ginnie Mae issuer defaults, Ginnie Mae
is required to step into the role of the issuer and make the timely pass-through payments to
investors, and subsequently, acquires the servicing rights and obligations of the issuer’s entire
Ginnie Mae guaranteed, pooled loan portfolio of the defaulted issuer. Ginnie Mae utilizes
contractors known as Master Subservicers (MSS) to perform servicing responsibilities related to
defaulted issuers. There are currently two MSSs for Single Family and one MSS for
Manufactured Housing defaulted issuers. These MSSs currently service 100% of all non-pooled
loans.

As the servicer, Ginnie Mae assesses loans to determine whether the loan should be purchased
out of the pool. Ginnie Mae will purchase mortgage loans out of the pool when:

a.      Mortgage loans are uninsured by the FHA, USDA, VA or PIH
b.      Mortgage loans were previously insured but insurance is currently denied (collectively
        with (a.), referred to as uninsured mortgage loans)
c.      Mortgage loans are insured but are delinquent for more than 90 and 120 days based on
        management discretion for manufactured housing and single family loans, respectively.




                                                19
                                                                                      2013-FO-0001

Ginnie Mae assesses the collectability of mortgage loans bought out of the pools of defaulted
portfolios. During FY 2012, the majority of mortgage loans were bought out due to borrower
delinquency of more than 120 days. Ginnie Mae evaluates the collectability of all loans and
considers a loan as credit impaired at acquisition when there is evidence of credit deterioration
subsequent to the loan’s origination and it is probable, at acquisition, that Ginnie Mae will be
unable to collect all contractually required payments receivable. Ginnie Mae considers
guarantees and insurance from FHA, USDA, VA and PIH in determining whether it is probable
that Ginnie Mae will collect all amounts due according to the contractual terms.

For FHA insured loans, Ginnie Mae expects to collect the full amount of the unpaid principal
balance and debenture rate interest (for months allowed in the insuring agency’s timeline), when
the insurer reimburses Ginnie Mae subsequent to filing a claim. As a result, these loans are
accounted for under ASC Subtopic 310-20, Receivables – Nonrefundable Fees and Other Costs.
In accordance with ASC 310-20-30-5, these loans are recorded at the unpaid principal balance
which is the amount Ginnie Mae pays to repurchase these loans. Accordingly, Ginnie Mae
recognizes interest income on these loans on an accrual basis at the debenture rate for the number
of months allowed under the insuring agency’s timeline. After the allowed timeline, Ginnie Mae
considers these loans to be non-performing as the collection of interest is no longer reasonably
assured, and places these loans on nonaccrual status.

Ginnie Mae separately assesses the collectability of mortgage loans bought out of the defaulted
portfolios that are uninsured and loans that are non-FHA insured for which Ginnie Mae only
receives a portion of the outstanding principal balance. If the principal and interest payments are
not fully guaranteed from the insurer (i.e., there is a lack of insurance), or loans are delinquent at
acquisition, it is probable that Ginnie Mae will be unable to collect all contractually required
payments receivable. Accordingly, these loans are considered to be credit impaired and are
accounted for under ASC Subtopic 310-30, Receivables – Loans and Debt Securities Acquired
with Deteriorated Credit Quality. At the time of acquisition, these loans are recorded at the
lower of their acquisition cost or present value of expected amounts to be received. As non-
performing loans, these loans are placed on nonaccrual status.

Ginnie Mae has the ability and the intent to hold these acquired loans for the foreseeable future
or until maturity according to policy; therefore, Ginnie Mae classifies the mortgage loans as held
for investment (HFI). The mortgage loans HFI are reported net of allowance for loan losses.
Mortgage loans HFI also includes mortgage loans that are undergoing the foreclosure process
and loans which management identified to be sold as a short sale. Upon completion of the
foreclosure process, when Ginnie Mae acquires the title of the underlying properties, these
properties are either conveyed to the insuring agency (or are in the process of being conveyed)
for claim and are reported as advances against defaulted MBS pools, or are classified as
properties held for sale. Upon completion of the short sale, when the underlying property is sold,
the remaining balances for claim are reported to short sales claims receivable.

Ginnie Mae performs periodic and systematic reviews of its loan portfolios to identify credit
risks and assess the overall collectability of the portfolios. The allowance for loss on mortgage
loans HFI represents management’s estimate of probable credit losses inherent in Ginnie Mae’s


                                                 20
                                                                                     2013-FO-0001

mortgage loan portfolio. The allowance for loss on mortgage loans HFI is netted against the
balance of mortgage loans HFI, representing the net realizable value of these loans.

Accrued Interest Mortgage Loans Held for Investment: Ginnie Mae records accrued interest
on mortgage loans HFI for interest which Ginnie Mae determines that the ultimate collectability
is probable. For FHA insured loans, Ginnie Mae recognizes interest income on an accrual basis
at the debenture rate for the number of months allowed under the insuring agency’s timeline.
After the allowed timeline, Ginnie Mae considers these loans to be non-performing as the
collection of interest is not reasonably assured, and places these loans on nonaccrual status.
Ginnie Mae has assessed the collectability of non-FHA and uninsured loans and determined that
these loans are non-performing and hence, are placed on nonaccrual status. Ginnie Mae
recognizes interest income for loans on nonaccrual status when cash is received.

Advances Against Defaulted MBS Pools: Advances against defaulted MBS pools represent
payments made to fulfill Ginnie Mae’s guaranty of timely principal and interest payments to
MBS security holders. Such advances are reported net of an allowance for uncollectible
advances to the extent management believes they will not be recovered. Principal and interest
receivable for foreclosed properties that have been conveyed to the insuring agency or are in the
process of being conveyed to the insuring agency are reported in the advance category while
Ginnie Mae is awaiting payment of the receivable. These claims are reported net of allowance.
The allowance for uncollectible advances is estimated based on actual and expected recovery
experience including expected recoveries from FHA, USDA, VA, and PIH. Other factors
considered in the estimate include market analysis and appraised value of the loans.

Short Sales Claims Receivable: As an alternative to foreclosure, a property may be sold for its
appraised value even if the sale results in a short sale where the proceeds are not sufficient to pay
off the mortgage. Ginnie Mae’s MSSs analyze mortgage loans HFI for factors such as
delinquency, appraised value of the loan, and market in locale of the loan to identify loans that
may be short sale eligible. These transactions are analyzed and approved by Ginnie Mae’s MBS
program office.

For FHA insured loans, for which the underlying property was sold in a short sale, the insurer
typically pays Ginnie Mae the difference between the proceeds received from the sale and the
total contractual amount of the mortgage loan and interest at the debenture rate. Hence, Ginnie
Mae does not incur any losses as a result of the short sale. Ginnie Mae records a short sale claims
receivable while it awaits repayment of this amount from the insurer. For short sales claims
receivable for which Ginnie Mae believes that collection is not probable, Ginnie Mae records an
allowance for short sales claims receivable. The allowance for short sales claims receivable is
estimated based on actual and expected recovery experience including expected recoveries from
FHA, USDA, VA, and PIH. The aggregate of the short sales receivable and the allowance for
short sales receivable is the amount that Ginnie Mae determines to be collectible.

Properties Held for Sale: Properties held for sale represent assets that Ginnie Mae has received
the title of the underlying collateral (e.g. completely foreclosed upon and repossessed) and
intends to sell the collateral For instances in which Ginnie Mae does not convey the property to
the insuring agency, Ginnie Mae holds the title until the property is sold. As the properties are



                                                 21
                                                                                    2013-FO-0001

available for immediate sale in their current condition and are actively marketed for sale, they are
reported as Properties Held for Sale on the Balance Sheets in accordance with ASC Subtopic
360-10, Property, Plant, and Equipment – Overall. Properties held for sale are initially recorded
on the Balance Sheets at fair value less its estimated cost to sell. The fair value less estimated
cost to sell on the date of foreclosure is deemed to be the carrying value of the foreclosed asset.
Subsequent to initial measurement, the Properties held for sale are reported at the lower of the
carrying amount or fair value less estimated cost to sell.

Mortgage Servicing Rights: Mortgage Servicing Rights (MSR) represent Ginnie Mae’s right
and obligation to service mortgage loans in mortgage backed securities obtained from defaulted
issuers. Ginnie Mae contracts with multiple MSSs to provide the servicing of its mortgage loans.
The servicing functions typically performed by Ginnie Mae’s MSSs include: collecting and
remitting loan payments, responding to borrower inquiries, accounting for principal and interest,
holding custodial funds for payment of property taxes and insurance premiums, counseling
delinquent mortgagors, supervising foreclosures and property dispositions, and generally
administering the loans. Ginnie Mae receives a weighted average servicing fee annually on the
remaining outstanding principal balances of the loans. These servicing fees are included in and
collected from the monthly payments made by the borrowers. Ginnie Mae pays a servicing
expense to the MSSs in consideration for servicing the loans.

Ginnie Mae records a servicing asset or liability each time it takes over a defaulted issuer’s
Ginnie Mae-guaranteed portfolio. The balance of the MSR represents the present value of the
estimated compensation for mortgage servicing activities that exceeds the fair market cost for
such servicing activities. Ginnie Mae considers its fair market cost to be the amount of
compensation that would be required by a substitute MSS should one be required. Market
information is used to determine the fair market cost for these services.

Ginnie Mae has elected the fair value option for the MSRs to better reflect the potential net
realizable or market value that could be ultimately realized from the disposition of the MSR asset
or the settlement of a future MSR liability. Upon acquisition, Ginnie Mae measures its MSRs at
fair value and subsequently re-measures the assets or liabilities with changes in the fair value
recorded in the Statements of Revenues and Expenses.

Fair Value: Ginnie Mae measures the fair value of its financial instruments in accordance with
FASB ASC Topic 820, Fair Value Measurement (ASC 820) that requires an entity to base fair
value on exit price and maximize the use of observable inputs and minimize the use of
unobservable inputs to determine the exit price. Accounting guidance defines fair value as the
price that would be received for an asset or paid to transfer a liability (an exit price) in the
principal or most advantageous market for the asset or liability in an orderly transaction between
market participants on the measurement date.

Ginnie Mae categorizes its financial instruments, based on the priority of inputs to the valuation
technique, into a three-level hierarchy, as described below.

Level 1     Quoted prices in active markets for identical assets or liabilities. Level 1 assets and


                                                22
                                                                                      2013-FO-0001

            liabilities include debt and equity securities and derivative contracts that are traded
            in an active exchange market, as well as certain U.S. Treasury and other U.S.
            Government securities that are highly liquid and are actively traded in over-the-
            counter markets.
Level 2     Observable inputs other than Level 1 prices, such as quoted prices for similar assets
            or liabilities, quoted prices in markets that are not active, or other inputs that are
            observable or can be corroborated by observable market data for substantially the
            full term of the assets or liabilities. Level 2 assets and liabilities include securities
            with quoted prices that are traded less frequently than exchange-traded instruments
            that are observable in the market or can be derived principally from or corroborated
            by observable market data.
Level 3     Unobservable inputs that are supported by little or no market activity and that are
            significant to the fair value of the assets or liabilities. Level 3 assets and liabilities
            include financial instruments whose value is determined using pricing models,
            discounted cash flow methodologies, or similar techniques, as well as instruments
            for which the determination of fair value requires significant management judgment
            or estimation.

Liability for Loss on MBS Program Guaranty: Liability for loss on MBS program guaranty
(MBS loss liability) represents management’s estimate of future losses to be incurred as a result
of the guaranty provided on MBS portfolios when information indicates a loss is probable and
the amount of loss can be reasonably estimated.

The MBS loss liability is established to the extent management believes losses due to issuer
defaults are probable and estimable and servicing income and FHA, USDA, VA, and PIH
insurance proceeds do not fully cover Ginnie Mae servicing and loan acquisition related costs.
The MBS Loss Liability is a liability account on the Balance Sheet. Ginnie Mae recognizes the
loss by recording a charge to the provision for loss on MBS program guaranty on the Statements
of Revenue and Expenses. Ginnie Mae records charge-offs as a reduction to the MBS loss
liability account when losses are confirmed and records recoveries as a credit to the MBS loss
liability account. Accordingly, the MBS loss liability is increased by provisions recorded as an
expense in the Statements of Revenues and Expenses and reduced by charge-offs, net of
recoveries. Among other losses and recoveries, miscellaneous expenses related to foreclosure
are not capitalized on the Balance Sheet and are charged off against the MBS loss liability and
recoveries of these expenses through the claims process are shown as recoveries against the MBS
loss liability.

Financial Guarantees: Ginnie Mae, as guarantor, follows the guidance in ASC Topic 460,
Guarantees (ASC 460), for its accounting for, and disclosure of, the issuance of certain types of
guarantees. ASC 460 requires that upon issuance of a guaranty, the guarantor must recognize a
liability for the fair value of the obligation it assumes under the guaranty. The issuance of a
guaranty under the MBS program obligates Ginnie Mae to stand ready to perform over the term
of the guaranty in the event that the specified triggering events or conditions occur.



                                                 23
                                                                                   2013-FO-0001

At inception of the guaranty, Ginnie Mae recognizes a liability for the guaranty it provides on
MBSs issued by third-party issuers. Generally, a guaranty liability is initially measured at fair
value. However, Ginnie Mae applies the practical expedient in ASC 460, which allows the
guaranty liability to be recognized at inception based on the premium received or receivable by
the guarantor, provided the guaranty is issued in a standalone arm’s length transaction with an
unrelated party.

Ginnie Mae provides the guaranty of principal and interest payments to MBS holders in the
event of issuer default and, in exchange, receives guaranty fees from the issuers. Ginnie Mae
receives guaranty fees from the issuers on the unpaid principal balance of the outstanding MBSs
in the non-defaulted issuer portfolio. These fees are paid on a monthly basis over the period that
the guaranty is provided. As Ginnie Mae does not receive guaranty fees at inception of the
guaranty, Ginnie Mae determines the initial measurement of the guaranty liability based on the
expected present value cash flows to be received for the guaranty fee. Subsequently, the
guaranty liability is measured by a systematic and rational amortization method.

Additionally, as the guaranty is issued in a standalone transaction for a premium, Ginnie Mae
records a guaranty asset for the guaranty fees as the offsetting entry for the guaranty liability.
The guaranty asset is calculated based on the present value of the expected future cash flows
from the guaranty fees based on the unpaid principal balance of the outstanding MBSs in the
non-defaulted issuer portfolio. Thus, there is no impact due to the guaranty liability and asset on
the net financial position of Ginnie Mae.

In FY 2012, the model for the valuation of Ginnie Mae’s guaranty-fee asset and ASC 460
liability was updated to utilize FHA’s actuarially reviewed prepayment and default econometric
model to predict loan behavior and more accurately capture the probability that loans will remain
in Ginnie Mae pools.

Recognition of Revenues and Expenses: Ginnie Mae receives monthly guaranty fees for each
MBS mortgage pool, based on a percentage of the pool’s outstanding balance. Fees received for
Ginnie Mae’s guaranty of MBS are recognized as earned. Ginnie Mae receives commitment fees
as issuers request commitment authority, and recognizes the commitment fees as income as
issuers use their commitment authority, with the balance deferred until earned or expired,
whichever occurs first. Fees from expired commitment authority are not returned to issuers.
Additionally, Ginnie Mae receives one-time upfront fees related to the issuance of multiclass
products. These multiclass fees are recognized as revenue over the service period in proportion
to the costs expected to be incurred.

Ginnie Mae’s expenses are classified into three groups: MBS program expenses, administrative
expenses, and fixed asset amortization. The main components of the MBS program expense line
item are multiclass expenses, MBS information systems and compliance expenses, and transfer
agent expenses.

Statements of Cash Flows: Ginnie Mae prepares the Statements of Cash Flows on an indirect
basis. For purposes of the Statements of Cash Flows, Funds with U.S. Treasury are considered
cash. Ginnie Mae classifies cash flows from operations related to its programs and overall



                                                24
                                                                                                   2013-FO-0001

business operations (i.e., accrued interest, deferred revenue and liabilities, accounts payable, and
MBS loss liability) as operating activities. Ginnie Mae classifies cash flows from securities that
Ginnie Mae intends to hold for investment (i.e., U.S. Government securities and mortgage loans
HFI) and capital expenditures and proceeds from sale of software as investing activities. Ginnie
Mae classifies cash flows from any non-federal transactions necessary to finance or fund the
operations of the agency as financing activities; of which there are none. Management
determines the cash flow classification at the date of purchase of a loan, whether it intends to sell
(operating activity) or hold the loan for the foreseeable future (investing activity).

Use of Estimates: The preparation of financial statements in conformity with accounting
principles generally accepted in the U.S. requires management to make estimates and
assumptions that affect the reported amounts of assets and liabilities, disclosure of contingent
liabilities at the date of the financial statements and the reported amounts of revenues and
expenses during the reporting period. Ginnie Mae has made significant estimates in a variety of
areas including, but not limited to, valuation of certain financial instruments and assets (e.g.,
MSRs, properties held for sale, and fixed assets - software), and liabilities (e.g., accruals for
payments of contracts and miscellaneous expenses related to maintaining mortgage assets, and
litigation-related obligations), including establishing the MBS loss liability. While Ginnie Mae
believes its estimates and assumptions are reasonable based on historical experience and other
factors, actual results could differ from those estimates.

Adoption of New Accounting Standard: Ginnie Mae adopted the new accounting standard,
FASB Accounting Standards Update (ASU) 2010-20, Disclosures about the Credit Quality of
Financing Receivables and the Allowance for Credit Losses, which was effective for annual
reporting periods ending on or after December 15, 2011 for information that Ginnie Mae has
available. The adoption of ASU 2010-20 did not affect the financial statement results as it only
amended and enhanced the disclosure requirements about the credit quality of financing
receivables and the allowance for credit losses.


Note B: U.S. Government Securities
The amortized cost and fair values as of September 30, 2012, were as follows:

                                                                   Gross            Gross
                                                Amortized Cost   Unrealized       Unrealized        Fair Value
   (Dollars in thousands)                                          Gains           Losses
   U.S. Treasury Overnight Certificates         $     509,600    $            -   $            -   $    509,600
   U.S. Treasury Notes                                996,300        29,600                    -       1,025,900
   U.S. Treasury Inflation-Indexed Securities         607,700        40,600                    -        648,300
   Total                                        $    2,113,600   $   70,200       $            -   $ 2,183,800



The amortized cost and fair values as of September 30, 2011, were as follows:




                                                     25
                                                                                                                 2013-FO-0001

                                                                       Gross                  Gross
                                                    Amortized Cost   Unrealized             Unrealized             Fair Value
   (Dollars in thousands)                                              Gains                 Losses
   U.S. Treasury Overnight Certificates             $            -   $                  -   $                -    $             -
   U.S. Treasury Notes                                    994,100                44,400                      -        1,038,500
   U.S. Treasury Inflation-Indexed Securities            1,132,700               56,300                      -        1,189,000
   Total                                            $    2,126,800   $       100,700        $                -    $ 2,227,500



The amortized cost, fair value, and annual weighted average interest rates of U.S. Government
securities at September 30, 2012, by contractual maturity date, were as follows:

                                                                                                          Weighted
                                                          Amortized Cost             Fair Value            Average
           (Dollars in thousands)                                                                       Interest Rate
           Due within one year                            $     509,600          $      509,600                  0.05%
           Due after one year through five years               1,604,000              1,674,200                  -0.49%
           Due after five years through ten years                            -                      -                  -
           Total                                          $    2,113,600         $ 2,183,800                     -0.36%



The amortized cost, fair value, and annual weighted average interest rates of U.S. Government
securities at September 30, 2011, by contractual maturity date, were as follows:

                                                                                                          Weighted
                                                          Amortized Cost             Fair Value            Average
           (Dollars in thousands)                                                                       Interest Rate
           Due within one year                            $              -       $              -
           Due after one year through five years               2,126,800              2,227,500                  0.16%
           Due after five years through ten years                            -                      -
           Total                                          $    2,126,800         $ 2,227,500                     0.16%



The U.S. Government securities portfolio is held in special market-based U.S. Treasury
securities that are bought and sold at composite prices received from the Federal Reserve Bank
of New York. These securities are maintained in book-entry form at the Bureau of Public Debt
and include overnight certificates, U.S. Treasury notes, and U.S. Treasury inflation-indexed
securities (reflecting inflation compensation). The coupon rates of Ginnie Mae’s holdings, with
a maturity of greater than one year, as of September 30, 2012, range from 1.88 percent to 2.00
percent. As of September 30, 2011, they ranged from 0.63 percent to 2.00 percent.

Although sales of investments are rare, Ginnie Mae liquidated one of its U.S. Government
securities within one year of maturity. The par value of the security sold was $520.6 million and
the realized gain on the sale was $12.5 million. These funds were used to repurchase mortgage
loans held for investment from defaulted issuer MBS pools. See note on mortgage loans HFI
regarding loan repurchases.



                                                         26
                                                                                       2013-FO-0001




Note C: Mortgage Loans Held for Investment, Net
Mortgage loans HFI, net as of September 30, 2012 and 2011 were as follows:
                                                                        September 30
(Dollars in thousands)                                           2012                  2011
Single Family Mortgages                                    $       6,866,500     $      6,350,300
Single Family Mortgages Allowance for Loss                          (177,400)                   -
Single Family Mortgages HFI, net                           $       6,689,100     $      6,350,300

                                                                        September 30
(Dollars in thousands)                                           2012                  2011
Manufactured Housing Mortgages                             $                 -   $              -
Manufactured Housing Mortgages Allowance for Loss                            -                  -
Manufactured Housing Mortgages HFI, net                    $                 -   $              -


                                                                        September 30
(Dollars in thousands)                                           2012                  2011
Total Mortgage Loans HFI                                   $       6,866,500     $      6,350,300
Total Mortgage Loans HFI Allowance for Loss                         (177,400)                   -
Total Mortgage Loans HFI, net                              $       6,689,100     $      6,350,300



During FY 2012, Ginnie Mae purchased $705.0 million in mortgages loans out of pools,
primarily in the single family defaulted portfolio and categorized these mortgage loans as HFI.
Ginnie Mae utilizes the non-pooled valuation and allowance methodology to evaluate mortgage
loans HFI on an individual basis. Items evaluated to determine impairment include insurance
status and probable recovery amount based on experience and industry studies.               As of
September 30, 2012, there are no multifamily mortgage loans HFI. Manufactured housing
mortgage loans HFI have a Remaining Principal Balance (RPB) of $1.0 million and have been
written down to $0; as these are delinquent past 90 days and considered credit impaired, these
are placed on a nonaccrual status.

Ginnie Mae analyzes its risk structure based on a loan’s insurance coverage. Loans, which are
insured by the FHA, have the least credit risk and are classified as Credit Risk Level 1 because
Ginnie Mae expects to receive full recovery of principal in the event of a loan default. Loans,
which are classified as a Credit Risk Level 2, are insured by other agencies (i.e., VA, USDA,
etc.). These loans are more risky than Credit Level 1 loans because Ginnie Mae expects to
receive partial recovery of principal. All loans without insurance coverage are classified as a
Credit Risk Level 3. These loans are high risk because they have a lower probability for
recovery than insured loans.

As discussed in Note A, Ginnie Mae records accrued interest on mortgage loans HFI for interest
which Ginnie Mae determines that the ultimate collectability is probable. For FHA insured
loans, Ginnie Mae recognizes interest income on an accrual basis at the debenture rate for the
number of months allowed under the insuring agency’s timeline. After the allowed timeline,


                                                    27
                                                                                           2013-FO-0001

Ginnie Mae considers these loans to be non-performing as the collection of interest is not
reasonably assured, and places these loans on nonaccrual status. Thus, it is important to note that
FHA insured mortgage loans HFI that are greater than 90 days delinquent continue to accrue
interest during the timeline for which the insurer will reimburse Ginnie Mae. Ginnie Mae has
assessed the collectability of non-FHA and uninsured loans; these loans are non-performing and
hence, are placed on nonaccrual status at the time of purchase. In fiscal years 2012 and 2011,
Ginnie Mae recorded $279.8 and $42.3 million, respectively, in interest income on mortgage
loans HFI.


Note D: Advances Against Defaulted MBS Pools, Net
The advances against defaulted MBS pools balance is $918.8 million in FY 2012 and $653.2
million in FY 2011. This account represents pass-through payments to MBS investors on pooled
loans, loans in post foreclosure which have not been submitted to an insuring agency for claim,
and insurance claims filed with insuring agencies but not paid. Of the total net advances of
$918.8 million, $59.7 million represents pass-through payments to MBS investors on pooled
loans, $852.6 million of the balance is loans in post foreclosure which have not been submitted
to an insuring agency for claim, and $6.5 million represents insurance claims filed with insuring
agencies but not paid. The comparative information is displayed in the table below.

                                                                   September 30
            (Dollars in thousands)                          2012                  2011
            Post Foreclosure/Preclaim                   $     852,600      $        583,400
            Advances                                    $      59,700      $         67,700
            Insurance claims filed                      $          6,500   $             2,100
            Advances against defaulted MBS pools, net   $     918,800      $        653,200



Note E: Properties Held for Sale, Net
Properties held for sale represent assets that Ginnie Mae has received the title of the underlying
collateral (e.g., completely foreclosed upon and repossessed) and intends to sell the collateral.
Properties held for sale, net consists of the foreclosed and repossessed property received in full
satisfaction of a loan, net of a valuation allowance for declines in the fair value of foreclosed
properties less estimated costs to sell. The properties are appraised by independent entities on a
regular basis. During FY 2012, $25.5 million of loans were repurchased out of pools and
transferred from other asset categories, and categorized as properties held for sale. The properties
held for sale balance is composed primarily of single family collateral.
Balances and activity for these acquired properties were as follows:




                                                  28
                                                                                           2013-FO-0001

                                                                 September 30
      (Dollars in thousands)                              2012                      2011
      Balance of properties, beginning of year        $           7,400     $               49,200
         Additions                                               25,500                    148,900
         Dispositions and Losses                                 (17,400)                  (190,700)
      Balance of properties, end of year              $          15,500     $                 7,400
      Valuation Allowance                                         (3,900)                    (4,000)
      Properties held for sale, net                   $          11,600     $                 3,400



Note F: Mortgage Servicing Rights
The following table presents activity for residential first mortgage MSRs:
                                                                       September 30
                 (Dollars in thousands)                                     2012
                 Balance, October 1, 2011                          $            110,900
                 Additions                                                            -
                 Changes in Fair Value                                          (50,200)
                 Balance, September 30, 2012                       $             60,700



                                                                       September 30
                 (Dollars in thousands)                                     2011
                 Balance, October 1, 2010                          $            137,700
                 Additions                                                            -
                 Changes in Fair Value                                          (26,800)
                 Balance, September 30, 2011                       $            110,900



Ginnie Mae uses a valuation model that calculates the present value of estimated future net
servicing income to determine the fair value of MSRs, which factors in prepayment risk. This
approach consists of projecting servicing cash flows under multiple interest rate scenarios and
discounting these cash flows using risk-adjusted discount rates. The decrease in MSR value is
directly attributed to changes in fair value during the fiscal year.

The key economic assumptions used in valuations of MSRs include weighted-average lives and
prepayment rates of the MSRs. The discount rate is used to discount expected cash flows in order
to derive the fair value of the MSRs. The discount rate assumptions reflect the market’s required
rate of return adjusted for the relative risk of the asset type. Discount rates assumptions are
derived from a range of observed discount rate assumptions in the industry to which a risk
premium is added in order to account for current credit conditions. These variables can, and
generally do, change from period to period as market conditions and projected interest rates
change, and could have an adverse impact on the value of the MSRs and could result in a
corresponding reduction in servicing income.




                                                 29
                                                                                          2013-FO-0001

Key economic assumptions used in determining the fair value of the Ginnie Mae’s MSR are as
follows:

                                                                        September 30
      (Dollars in thousands)                                         2012                 2011

      Valuation at period end:
                  Fair value (thousands)                         $      60,700        $     110,900
                  Weighted- average life (years)                             2.43                3.97
      Prepayment rates assumptions:
                  Rate assumption                                       32.89%               20.62%
                  Impact on fair value of a 10% adverse change              (4,420)          (6,245)
                  Impact on fair value of a 20% adverse change              (8,339)         (11,875)
      Discount rate assumptions:
                  Rate assumption                                       12.52%               12.50%
                  Impact on fair value of a 10% adverse change              (1,398)          (3,740)
                  Impact on fair value of a 20% adverse change              (2,735)          (7,251)



These sensitivities are hypothetical and should be considered with caution. Changes in fair value
based on a 10% or 20% variation in assumptions generally cannot be extrapolated because the
relationship of the change in assumptions to the change in fair value may not be linear. Also, the
effect of a variation in a particular assumption on the fair value is calculated without changing
any other assumption. In reality, changes in one factor may result in changes in another (e.g.,
increased market interest rates may result in lower prepayments and increased credit losses) that
could magnify or counteract the sensitivities. Further, these sensitivities show only the change in
the asset balances and do not show any expected change in the fair value of the instruments used
to manage the interest rates and prepayment risks associated with these assets. The primary risk
of Ginnie Mae’s MSRs is interest rate risk and the resulting impact on prepayments. A
significant decline in interest rates could lead to higher than expected prepayments that could
reduce the value of the MSRs.

Ginnie Mae collected $57.0 million and $73.0 million in mortgage servicing fees for the years
ended September 30, 2012 and 2011, respectively. This amount is recorded as a recovery in the
MBS loss liability.


Note G: Fair Value Measurements
This note discusses the recurring and non-recurring changes in fair value measurement as well as
the fair value of financial instruments. The following sections provide detailed information.

Recurring Changes in Fair Value
The following table presents for each of these fair value measurement hierarchy levels, Ginnie
Mae’s assets that are measured at fair value on a recurring basis subsequent to initial recognition,
including financial instruments for which Ginnie Mae has elected the fair value option:


                                                     30
                                                                                                  2013-FO-0001



                                                                  September 30, 2012
   (Dollars in thousands)                  Level 1            Level 2            Level 3                 Total
   Assets
            Mortgage Servicing Rights                -                  -            60,700               60,700


   Total Assets at Fair Value              $         -        $         -    $       60,700         $     60,700




                                                                  September 30, 2011

   (Dollars in thousands)                  Level 1            Level 2            Level 3                 Total
   Assets
            Mortgage Servicing Rights                -                  -           110,900              110,900

   Total Assets at Fair Value              $         -        $         -    $      110,900         $ 110,900




Total assets measured at fair value on a recurring basis and classified as Level 3 were $60.7
million or less than 1% of Total Assets, and $110.9 million or less than 1% of Total Assets, on
the Balance Sheets as of September 30, 2012 and 2011, respectively.

The following table presents a reconciliation for all assets and liabilities measured at fair value
on a recurring basis using significant unobservable inputs (Level 3) for the years ended
September 30, 2012 and 2011:

            (Dollars in thousands)                                                         MSRs
            Assets:
                                                                                    $         110,900
            October 1, 2011

            Net realized losses included in Excess of Revenue over Expenses (1)               (50,200)

            September 30, 2012                                                      $          60,700

            Unrealized gains(losses) still held                                                     -


            Assets:
                                                                                    $         137,700
            October 1, 2010

            Net realized losses included in Excess of Revenue over Expenses (1)               (26,800)

            September 30, 2011                                                      $         110,900

            Unrealized gains(losses) still held                                                     -




                                                         31
                                                                                                              2013-FO-0001


(1) Net realized/ unrealized gains (losses) included in Excess of Revenue over Expenses represent the periodic fair value changes
of the MSR



The table below summarizes gains and losses due to changes in fair value, including both
realized and unrealized gains and losses, recorded in excess of revenue over expenses for the
fiscal year ended 2012 and 2011 for Level 3 assets:

                                                                                             Total Gains and Losses on
                                                                                                        MSR

   (Dollars in thousands)                                                                         2012             2011
   Classification of gains and losses
   (realized/unrealized) included in Excess of
   Revenue over Expenses for the period:

                                                      Loss on MSR                                    50,200          26,800
   Total                                                                                     $       50,200    $     26,800




The following is a description of the valuation methodologies used for assets and liabilities
measured at fair value on a recurring basis, as well as the basis for classifying these assets and
liabilities as Level 1, Level 2 or Level 3. The estimated fair value was calculated using certain
facts and assumptions, which vary depending on the specific financial instrument:

Mortgage Servicing Rights – Ginnie Mae elected the fair value option for its MSRs and they are
recorded on the Balance Sheets at fair value on a recurring basis. Ginnie Mae measures the fair
value of MSRs based on the present value of expected cash flows of the underlying mortgage
assets using management’s best estimates of certain key assumptions, which include prepayment
speeds, forward yield curves, adequate compensation, and discount rates commensurate with the
risks involved. Changes in anticipated prepayment speeds, in particular, result in fluctuations in
the estimated fair values of the servicing rights. If actual prepayment experience differs from the
anticipated rates used in the model, this may result in a material change in the fair value. MSRs
are classified within Level 3 of the valuation hierarchy because significant inputs are
unobservable.


Nonrecurring Changes in Fair Value
The following tables display assets measured on the Balance Sheets at fair value on a
nonrecurring basis; that is, the instruments are not measured at fair value on an ongoing basis but
are subject to fair value adjustments in certain circumstances (e.g., when Ginnie Mae evaluates
for impairment), and the gains or losses recognized for these assets and liabilities for the years
ended September 30, 2012 and 2011, as a result of fair value measurements:




                                                               32
                                                                                           2013-FO-0001

                                         September 30, 2012
             (Dollars in thousands)      Level 1        Level 2       Level 3    Total Losses
             Assets:

             Properties held for sale                             $     11,600            -


                                         September 30, 2011
             (Dollars in thousands)      Level 1        Level 2       Level 3    Total Losses
             Assets:

             Properties held for sale                             $      3,400            -




The estimated fair value was calculated using certain facts and assumptions, which vary
depending on the specific financial instrument. The same valuation methodologies are used to
estimate the fair value of financial instruments not carried at fair value but disclosed as part of
the fair value of financial instruments:

Properties Held for Sale, net – Properties held for sale, net represents foreclosed property
received in full satisfaction of a loan, which Ginnie Mae intends to sell, net of a valuation
allowance. Properties held for sale is initially recorded on the Balance Sheets at its fair value
less its estimated cost to sell. Subsequent to initial measurement, the properties held for sale are
reported at the lower of the carrying amount or fair value less estimated cost to sell. The fair
value estimate is based on relevant current and historical factors available at the time of
valuation. Acquired property is classified within Level 3 of the valuation hierarchy because
significant inputs are unobservable.

Fair Value of Financial Instruments
The following table displays the carrying value and estimated fair value of Ginnie Mae’s
financial instruments as of September 30, 2012 and 2011. The fair value of financial instruments
disclosed in the table includes commitments to guaranty MBS, which are off-balance sheet
financial instruments as described in Note I. The fair values of these commitments are presented
as “unrecognized MBS commitment.”




                                                   33
                                                                                                2013-FO-0001

                                                 September 30, 2012                 September 30, 2011

(Dollars in thousands)                      Carrying Value       Fair Value    Carrying Value        Fair Value

Financial Assets:
Funds with U.S. Treasury                    $   7,075,500    $     7,075,500   $   7,210,300     $     7,210,300
U.S. Government securities                  $   2,113,600    $     2,183,800   $   2,126,800     $     2,227,500
Mortgages held for investment, net          $   6,689,100    $     6,689,100   $   6,350,300     $     6,350,300
Advances against defaulted MBS Pools, net   $     918,800    $       918,800   $     653,200     $       653,200
Short sales claims receivable, net          $      21,100    $        21,100   $      32,300     $        32,300
Properties held for sale, net               $      11,600    $        11,600   $        3,400    $          3,400
Mortgage servicing rights                   $      60,700    $        60,700   $     110,900     $       110,900
Guaranty asset                              $   6,633,900    $     6,633,900   $   2,175,100     $     2,175,100

Financial Liabilities:
Guaranty liability                          $   6,633,900    $     6,633,900   $   2,175,100     $     2,175,100

Unrecognized financial instruments:

Unrecognized MBS commitments                $     601,700    $       601,700   $     213,900     $       213,900




Ginnie Mae’s standing as a federal government corporation whose guaranty carries the full faith
and credit of the U.S. Government makes it difficult to determine what the fair value of its
financial instruments would be in the private market. Therefore, the fair values presented in the
table above do not purport to present the net realizable, liquidation, or market value as a whole.
Furthermore, amounts Ginnie Mae ultimately realizes from the disposition of assets or settlement
of liabilities may vary significantly from the fair values presented.

The valuation techniques for the line items disclosed in the above table, including funds with
U.S. Treasury, advances against defaulted MBS pools, and short sales claims receivable have a
carrying amount which approximates fair value due to the short-term nature and low credit risk
inherent in them. These line items are discussed in Note A and other applicable disclosures
contained in the Notes to the Financial Statements. Mortgage loans HFI are reported net of
allowance for loan losses. The disclosures related to mortgage loans HFI are discussed in Notes
A and C. The following are valuation techniques for items not subject to the fair value hierarchy
either because they are not measured at fair value other than for the purpose of the above table or
because they are only measured at fair value at inception:

U.S. Government Securities – Ginnie Mae recognizes the fair value as the carrying value for the
line items in the table except for U.S. Government Securities which is based on Treasury values
as of September 30.

Guaranty Asset and Liability – Ginnie Mae uses the practical expedient to determine the
guaranty asset and liability based on the present value of the expected future cash flows from the
guaranty fees based on the unpaid principal balance of the outstanding MBSs in the non-
defaulted issuer portfolio which results from new issuances of MBSs, scheduled run-offs of


                                                       34
                                                                                  2013-FO-0001

MBSs, prepayments and defaults. Subsequently, the guaranty asset and liability is measured by
a systematic and rational amortization method.

In FY 2012, the model was updated to rely heavily on FHA’s actuarially reviewed prepayment
and default econometric model to predict loan behavior and more accurately captures the
probability that loans will remain in Ginnie Mae pools.

Unrecognized MBS Commitment – During the mortgage closing period and prior to granting its
guaranty, Ginnie Mae enters into commitments to guaranty MBS. The commitment ends when
the securities are issued or the commitment period expires. Ginnie Mae’s risk related to
outstanding commitments is much less than for the outstanding balance of MBS commitments.
Outstanding MBS commitments as of September 30, 2012 and September 30, 2011 were $115.7
billion and $102.6 billion, respectively. If the outstanding MBS commitments were utilized in
FY 2012, Ginnie Mae’s corresponding guaranty liability, its obligation to stand ready to perform
on these securities, would be approximately $601.7 million as of September 30, 2012 and $213.9
million as of September 30, 2011. These are shown as unrecognized MBS commitments.


Note H: Allowances for Losses and MBS Loss Liability
Ginnie Mae establishes allowances for losses and a MBS loss liability on an annual basis. The
main components of the total estimated credit losses are discussed below.

Ginnie Mae records actual losses on its financing receivables, which may be for all or part of a
particular advance, mortgage loan, properties held for sale or claims receivable as a
charge/deduction (debit) against the allowance. The related asset balance is charged off
(credited) in the period in which the principal and/or interest portion are deemed uncollectible.
Ginnie Mae deems the loans to be uncollectible and records a charge-off when Ginnie Mae has
ceased all collection efforts of receiving payment or collateral for the outstanding debt.

Allowance for Uncollectible Advances
Under its MBS guaranty, Ginnie Mae makes payments (advances) to fulfill its guaranty of timely
principal and interest payments to investors for pooled mortgage loans when an issuer defaults.
Ginnie Mae establishes an allowance for uncollectible advances and records a corresponding
provision for loss from uncollectible advances to reflect the estimates of losses when Ginnie Mae
deems a portion of the advances recorded are uncollectible. Principal and interest receivable for
foreclosed properties that have been conveyed or are in the process of being conveyed to the
insuring agency are also reported in Advances and reported net of allowance. The allowance for
uncollectible advances is estimated based on actual and expected recovery experience including
expected recoveries from FHA, USDA, VA, and PIH. Other factors include market analysis and
appraised value of the loans.

Allowance for Loss on Mortgage Loans HFI
Ginnie Mae establishes an allowance for loss on mortgage loans HFI for the estimated
uncollectible portion of the principal balance of the loan. This means evaluating whether all of
the contractual payments will be collected as scheduled according to the contractual terms.
Additionally, Ginnie Mae incorporates the probable recovery amount from mortgage insurance



                                               35
                                                                                   2013-FO-0001

(e.g., FHA, USDA, VA, or PIH) based on established insurance rates. To make this evaluation,
Ginnie Mae reviews the delinquency of mortgage loans, industry benchmarks, as well as the
established rates of insurance recoveries from insurers.

Allowance for Loss Short Sales Claims Receivable
As an alternative to foreclosure, borrowers may sell the property for its appraised value even if
such a sale results in a short sale where the proceeds are not sufficient to pay off the mortgage.
For FHA insured loans where the underlying property was sold in a short sale, the insurer
typically pays Ginnie Mae the differences between the proceeds received from the sale and the
total contractual amount of the mortgage loan and interest at the debenture rate. Ginnie Mae
records a short sale claims receivable while it awaits repayment of this amount from the insurer.
For non-FHA insured loans for which Ginnie Mae receives less than the difference as described,
and allowance for short sale claim receivable is recorded for the portion of the balance estimated
to be uncollectible. The allowance for short sales claims receivable is estimated based on actual
and expected recovery experience including expected recoveries from FHA, USDA, VA, and
PIH. The aggregate of the short sales receivable and the allowance for short sales receivable is
the amount that Ginnie Mae determines to be collectible.

MBS Loss Liability
Ginnie Mae establishes a MBS loss liability through a provision charged to operations when, in
management’s judgment, losses associated with existing defaulted issuers or new issuer defaults
are probable and estimable. In estimating losses, management utilizes a statistically-based model
that evaluates numerous factors, including, but not limited to, general and regional economic
conditions, mortgage characteristics, and actual and expected future default and loan loss
experience. Ginnie Mae also analyzes the ability of the borrowers to pay as well as the recovery
amount from mortgage insurance when estimating valuations of the mortgage-related assets and
liabilities. Ginnie Mae’s MBS loss liability is made up of three components:

   A. Liability for currently defaulted issuers’ pooled loans - loss contingency that arises from
      the guaranty obligation that Ginnie Mae has to the MBS holders subsequent to issuer
      default. Ginnie Mae is obligated to make timely principal and interest payments to
      investors subsequent to issuer default even if Ginnie Mae is unable to collect payments
      for the underlying loans from the homeowners or insuring agencies. Accordingly, Ginnie
      Mae records a loss liability contingency that arises from the net present value of cash
      outflows being in excess of cash inflows as related to the defaulted issuer pooled loans.
   B. Liability for currently defaulted issuers’ non-pooled loans – loss contingency related to
      any non-recoverable foreclosure costs that arise from the mortgage loans HFI and
      properties held for sale. Ginnie Mae records the net present value for the estimated non-
      recoverable costs that arise as part of the guaranty fulfillment for the MBS program.
   C. Liability for probable issuer defaults – loss contingency that arises from the guaranty
      obligation that Ginnie Mae has to the MBS holders as a result of a probable issuer
      default. The issuers have the obligation to make timely principal and interest payments to
      investors, however, in the event whereby the issuer defaults, Ginnie Mae steps in and
      continues to make the contractual payments to investors. Ginnie Mae estimates the


                                               36
                                                                                   2013-FO-0001

       amount of liability by determining the net present value of cash outflows and inflows for
       issuers that are determined to be probable defaults. For the issuers who are identified as
       probable defaults, Ginnie Mae records a contingent liability for the estimated amount of
       the cash flows in the loss liability.

Management also considers uncertainties related to estimates in the loss liability setting process.
When losses are confirmed and realized on the defaulted issuers’ portfolios, Ginnie Mae records
the amounts as charged-off (debit) to the loss liability. Ginnie Mae recovers part of its losses
through servicing fees on the performing portion of the portfolios which are recorded as a
recovery (credit) to the loss liability. As Ginnie Mae’s defaulted issuer portfolio changes,
original estimates are compared with actual results over time and the loss liability’s adequacy is
assessed and adjusted as necessary. Typically, Ginnie Mae performs this assessment of the
overall model on an annual basis.

In August 2009, Ginnie Mae defaulted a large issuer and assumed responsibility for its portfolio
of 30,174 loans which is managed by a MSS. Ginnie Mae was required to certify the loans by
August 2010 in accordance with its policies. However, Ginnie Mae subsequently discovered that
the portfolio contained numerous documentation deficiencies.

To resolve the deficiencies, the MSS, on behalf of Ginnie Mae, engaged a third contractor
specifically to remediate the documentation deficiencies during FY 2012. Ginnie Mae also
worked with the U.S. Department of Housing and Urban Development (HUD) Office of General
Counsel (OGC) to assess which types of document deficiencies are likely to present a high risk
of loss to HUD, either through lack of insurance coverage or collateral deficiencies.

Based on the remediation process, Ginnie Mae reported approximately 20,000 loans from this
issuer with a remaining principal balance of approximately $2.8 billion, had custodial
documentation deficiencies preventing certification. Of these 20,000 loans, approximately 731
loans were identified by the OGC as having deficiencies that may lead to an increased risk of
loss to Ginnie Mae. The remaining principal balance associated with the 731 loans is
approximately $103 million. As a result of the risk related to the 731 loans, Ginnie Mae recorded
an additional Provision for MBS Loss Liability and corresponding provision of approximately
$7.8 million which is included in the table below. Ginnie Mae also recorded an additional
Allowance for mortgage loans held for investment and corresponding provision of approximately
$40.6 million.

Changes in the MBS loss liability for the years ended September 30, 2012, and 2011 were as
follows:




                                                37
                                                                                                     2013-FO-0001

                                                                                 Manufactured
                                  Single Family                Multifamily                            Total
    (Dollars in thousands)                                                         Housing
    MBS Loss Liability
    September 30, 2010        $              886,100       $        61,300       $     57,500    $    1,004,900
       Provision for losses                  (287,400)             (61,300)           (58,300)         (407,000)
       Charge-offs                           (296,200)                       -         (1,300)         (297,500)
       Recoveries                                 91,700                     -          3,700           95,400

    MBS Loss Liability
    September 30, 2011        $              394,200       $                 -   $      1,600    $     395,800
       Provision for losses                  266,500                   300             (2,300)         264,500
       Charge-offs                           (446,200)                (200)            (1,000)         (447,400)
       Recoveries                            142,000                         -          2,500          144,500
    MBS Loss Liability
    September 30, 2012        $              356,500       $           100       $        800    $     357,400



Management believes that its MBS loss liability is adequate to cover probable and estimable
losses on the MBS program guaranty. Ginnie Mae incurs losses when FHA, USDA, VA, and
PIH insurance and guaranty proceeds do not cover losses that result from issuer defaults or in the
event loans are uninsured and proceeds do not cover losses from default.
During FY 2012, Ginnie Mae defaulted one single family issuer and one multifamily issuer
without extinguishment. There is no financial impact because the defaults are without
extinguishment. Additionally, Ginnie Mae defaulted one single family issuer in FY 2012 which
was previously accounted for and included in the MBS Loss Liability as a recognized subsequent
event in the FY 2011 financial statements. Ginnie Mae believes that the MBS loss liability is
adequate to cover probable and estimable guaranty related losses


Note I: Financial Guarantees and Financial Instruments with Off-Balance Sheet Risk
Ginnie Mae guarantees the timely payment of principal and interest to MBS investors in the
event of issuer default and, in exchange, receives guaranty fees from the issuers. The guarantees
are assessed annually. The guaranty fee is calculated based on the unpaid principal balance of
outstanding MBS in the non-defaulted issuer portfolio and is Ginnie Mae’s compensation for
taking on the risk of providing the guaranty. The MBS securities are backed by pools of insured
or guaranteed FHA, USDA, VA, or PIH mortgage loans. Ginnie Mae recognizes a guaranty
asset upon issuance of a guaranty and also recognizes a non-contingent guaranty liability for its
obligation to stand ready to perform on these guarantees. The guaranty liability recognized on
the Balance Sheets is $6,633.9 million and $2,175.1 million as of September 30, 2012 and 2011,
respectively. In addition to the guaranty liability, Ginnie Mae recognizes a MBS loss liability,
which is contingent liability for estimable and probable losses in relation to these guarantees
(i.e., MBS Loss Liability).

For those guarantees recognized on the Balance Sheets, Ginnie Mae’s maximum potential
exposure under these guarantees is primarily comprised of the amount of MBS securities


                                                     38
                                                                                            2013-FO-0001

outstanding. On September 30, 2012, the amount of securities outstanding, which is guaranteed
by Ginnie Mae, was $1.3 trillion, including $4.1 million of Ginnie Mae-guaranteed bonds.
However, Ginnie Mae’s potential loss is considerably less because of the financial strength of its
issuers. Additionally, in the event of default, the underlying mortgages serve as primary
collateral, and FHA, USDA, VA, and PIH insurance or guaranty indemnifies Ginnie Mae for
most losses. The Ginnie Mae guaranteed security is a pass-through security whereby mortgage
principal and interest payments, except for servicing and guaranty fees, are passed through to the
security holders monthly. Mortgage prepayments are also passed through to security holders.
As a result of the security’s structure, Ginnie Mae bears no interest rate or liquidity risk. Ginnie
Mae’s exposure to credit loss is contingent on the nonperformance of Ginnie Mae issuers. Other
than those issuers considered in the MBS loss liability, Ginnie Mae does not anticipate
nonperformance by its other counterparties.

Ginnie Mae is also subject to credit risk for its outstanding commitments to guarantee MBS
which are not reflected in its Balance Sheets in the normal course of operations. During the
mortgage closing period and prior to granting its guaranty, Ginnie Mae enters into commitments
to guarantee MBS. The commitment ends when the securities are issued or the commitment
period expires. Ginnie Mae’s risk related to guarantee commitments is much less than for the
commitment amount authorized, due in part to Ginnie Mae’s ability to limit commitment
authority granted to individual MBS issuers.

Outstanding MBS and commitments were as follows:

                                                              September 30
               (Dollars in billions)                   2012                  2011
               Outstanding MBS                $           1,341.4      $        1,221.7
               Outstanding MBS Commitments    $               115.7    $            102.6



The Ginnie Mae MBS serves as the underlying collateral for multiclass products, such as Real
Estate Mortgage Investment Conduits (REMICs), Callable Trusts, Platinums, and Stripped
Mortgage-Backed Securities (SMBS), for which Ginnie Mae also guarantees the timely payment
of principal and interest. These structured transactions allow the private sector to combine and
restructure cash flows from Ginnie Mae MBS into securities that meet unique investor
requirements for yield, maturity, and call-option features.

In FY 2012, Ginnie Mae issued a total of $106.7 billion in its multiclass securities program. The
estimated outstanding balance of multiclass securities included in the outstanding MBS balance
as of September 30, 2012, was $522.5 billion. These guaranteed securities do not subject Ginnie
Mae to additional credit risk beyond that assumed under the MBS program.


Note J: Concentrations of Credit Risk
Concentrations of credit risk exist when a significant number of counterparties (for example,
issuers and borrowers) engage in similar activities or are susceptible to similar changes in
economic conditions that could affect their ability to meet contractual obligations. Generally,


                                                  39
                                                                                                      2013-FO-0001

Ginnie Mae’s MBS pools are diversified among issuers and geographic areas. No significant
geographic concentrations of credit risk exist; however, to a limited extent, securities are
concentrated among issuers. It is important to note that many of Ginnie Mae’s largest
performing issuers are regulated institutions and as such are subjected to regulation and reviews
by other government entities in addition to monitoring by Ginnie Mae.

Concentrations of credit risk are as noted below, as of September 30, 2012:

                                                                                                       Home Equity
                                                                                 Manufactured
                                Single Family            Multifamily                                    Conversion
                                                                                   Housing
                                                                                                      (HECM/HMBS)
                             Number    Remaining    Number    Remaining       Number Remaining Number Remaining
                                of      Principal      of      Principal         of   Principal    of   Principal
(Dollars in billions)        Issuers    Balance     Issuers    Balance        Issuers Balance   Issuers Balance

Largest performing issuers        25 $    1,135.3       19    $        58.5        1   $        0.3    11   $   36.9
Other performing issuers         169 $       92.2       37    $         9.0        2   $         -      0   $        -
Defaulted issuers                 22 $       11.2        0    $          -         3   $         -      0   $        -




Issuers are permitted only to pool insured or guaranteed loans (from FHA, USDA, VA or PIH).
The insuring and guarantying entities have strict underwriting standards and criteria for quality
of collateral. In the event of issuer default, Ginnie Mae assumes the rights and obligations of the
issuer and becomes the owner of the MSR asset, which typically is a sale-able asset. In addition,
in the event of borrower delinquency in excess of 90 days, Ginnie Mae has the right to
repurchase the loan out of the pool and can obtain access to the underlying collateral or insurance
claim by pursuing foreclosure.

As of September 30, 2012, Ginnie Mae’s single family and manufactured housing pooled
defaulted portfolio had remaining principal balances of $11.2 billion and $651 thousand,
respectively.


Note K: Commitments and Contingencies
As of September 30, 2012, and as of this report, Ginnie Mae’s Office of General Counsel has
identified one pending or threatened action or unasserted claim or assessment in which Ginnie
Mae’s exposure is $1.0 million, individually, or in the aggregate for similar matters.
Additionally, Ginnie Mae’s Office of General Counsel has determined that there are no pending
or threatened actions or unasserted claims or assessments in which Ginnie Mae’s potential loss
exceeds $3.0 million in the aggregate for cases not listed individually or as part of similar cases
that could be material to the financial statements. In the opinion of Ginnie Mae’s management
and Office of General Counsel the likelihood of an unfavorable outcome is remote in the case. It
is the opinion of Ginnie Mae that the disposition or ultimate resolution of the case will not have a
material adverse effect on the financial position of Ginnie Mae. Ginnie Mae’s management
recognizes the uncertainties that could occur in regard to potential defaulted issuers and other
indirect guarantees (i.e., large issuer portfolio default, lack of proper insurance coverage of
defaulted loans, etc.).


                                                        40
                                                                                          2013-FO-0001



During FY 2012, Ginnie Mae defaulted one single family issuer with a portfolio of $41.1 billion
without extinguishment. The issuer was approximately 3.0% of the Ginnie Mae portfolio. The
default occurred as the result of the issuer’s bankruptcy. Ginnie Mae expects the bankruptcy sale
and transfer of portfolio servicing to another issuer to occur during FY 2013. Additionally,
Ginnie Mae currently has an Interim Service Agreement in place to mitigate any potential risk if
the bankruptcy sale and servicing transfer does not occur as expected. Ginnie Mae has not
disclosed a dollar amount related to a corresponding asset or liability associated with the default
because the likelihood of a loss is not probable.


Note L: Related Parties
Ginnie Mae is subject to controls established by government corporation control laws (31 U.S.C.
Chapter 91) and management controls by the Secretary of HUD and the Director of the Office of
Management and Budget (OMB). These controls could affect Ginnie Mae’s financial position or
operating results in a manner that differs from those that might have been obtained if Ginnie Mae
were autonomous.

Ginnie Mae was authorized to use $19.5 million during FY 2012 for personnel (payroll) and non-
personnel (travel, training) costs only. During FY 2012, Ginnie Mae incurred $14.1 million, net,
for Salaries and Expenses. Ginnie Mae has no liability for future payments to employees under
the CSRS or FERS retirement systems. Ginnie Mae does not account for the assets of CSRS or
FERS nor does it have actuarial data with respect to accumulated plan benefits or the unfunded
pension liability relative to its employees. These amounts are reported by the Office of
Personnel Management (OPM) and are allocated to HUD. OPM also accounts for the health and
life insurance programs for federal employees and retirees and funds the non-employee portion
of these programs’ costs.

Cash receipts, disbursements, and investment activities are processed by the U.S. Treasury.
Funds with U.S. Treasury represent cash and are treated as such for the Statements of Cash Flow.
Ginnie Mae has authority to borrow from the U.S. Treasury to finance operations in lieu of
appropriations, if necessary.

Additionally, Ginnie Mae has an intra-entity relationship with the FHA, which is part of HUD.
Of the total mortgage loans HFI, net, approximately $6.2 billion and $5.9 billion loans were
insured by FHA as of September 30, 2012 and 2011, respectively. In addition, Ginnie Mae
submits and receives claim proceeds for FHA-insured loans that have been through the
foreclosure and short sale process. The breakdown of FHA claims pending payment or pre-
submission to FHA is below:

                                                                  September 30
           (Dollars in thousands)                          2012                  2011
           Post Foreclosure/Preclaim                 $        829,500     $        568,300
           Short Sales Claims Receivable             $         14,900     $         25,600
           Insurance claims filed                    $            6,500   $             2,100
           Total FHA Claims, net                     $        850,900     $        596,000



                                                41
                                                                                   2013-FO-0001




Note M: Credit Reform
The Federal Credit Reform Act of 1990, which became effective on October 1, 1991, was
enacted to more accurately measure the cost of federal credit programs and to place the cost of
these credit programs on a basis equivalent with other federal spending. Credit reform focuses
on credit programs that operate at a loss by providing for appropriated funding, within budgetary
limitations, to subsidize the loss element of the credit program. Negative subsidies, calculated
for credit programs operating at a profit, normally result in the return of funds to the U.S.
Treasury. OMB specifies the methodology an agency is to follow in accounting for the cash
flows of its credit programs.

Ginnie Mae’s credit activities have historically operated at a profit. Ginnie Mae has not incurred
borrowings or received appropriations to finance its credit operations. As of September 30,
2012, the U.S. Government has an investment of $16.4 billion in Ginnie Mae. Pursuant to the
statutory provisions under which Ginnie Mae operates, its net earnings are used to build sound
reserves. In the opinion of management and HUD’s general counsel, Ginnie Mae is not subject
to the Federal Credit Reform Act.


Note N: Subsequent Event
Ginnie Mae management has evaluated potential subsequent events through October 31, 2012,
the date through which the financial statements were made available to be issued. Based on the
evaluation, Ginnie Mae management identified one subsequent event. On September 28, 2012,
Ginnie Mae approved a Transfer of Servicing Agreement between two issuers. The transfer is
scheduled to occur on November 1, 2012. Ginnie Mae identified the issuer, who transferred their
servicing rights to the other Ginnie Mae approved issuer in this transaction, as a probable risk of
default during the MBS Loss Liability analysis. However, as a result of the Transfer of
Servicing Agreement, Ginnie Mae no longer assesses the risk of default as probable.
Accordingly, no liability related to this issuer has been included in the MBS loss liability
calculation. Any estimate of this liability would be insignificant.




                                                42
